                                Closeout for M96080028

        On August 24, 1996, OIG received a letter fkom the complainant1 alleging
    possible misconduct on the part of two university administrators, a Dean2 and an
    Associate Provost.3 The allegation was that the university administrators acted in
    bad faith with NSF when they allowed a proposal4 to be submitted that required
    the use of facilities they knew were to be destroyed and subsequently accepted the
-   NSF award without modifying it to reflect this knowledge. The complainant also
    alleged that the Dean and Provost then coerced the project's PIS to submit a
    progress report that hid this fact.
        The crux of the complainant's allegation concerned a laboratory in the PIS'
    department. Before the submission of this proposal, the department held several
    planning meetings, attended by administrators and faculty, to discuss the best       '
    approach, requirements, etc. for improving a laboratory course and the associated
    lab equipment. After the award was made by NSF to the university, it announced
    to the faculty its intention of destroying the building housing the lab and
    equipment and also ruled out the possibihty of relocating the equipment elsewhere
    on campus. During another meeting, when the role of the equipment to the project
    was restated to the Dean and Associate Provost, the administrators allegedly
    suggested that the PIS write their NSF progress report with a new focus that would
    not draw attention to the loss of the lab and equipment. Allegedly, when the PIS
    expressed unease and said that they should return the award money to NSF, the
    Associate Provost "heatedly stated" that any overhead money the university lost
    would come out of the operating budget of the PIS' department. The Dean also
    allegedly said that the staff person hired to run the lab and m o m the equipment
    would have to be terminated, that individual's l-yr contract notwithstanding.
       OIG reviewed the award jacket and noted that the award was focused on
    improving the educational environment and structure of an introductory science
    course. As part of the award, the PIS wanted to incorporate new technology with
    existing equipment to improve data collection. A primary goal of the proposal was
    to take advantage of computers in classrooms to improve the way material is
    presented to the students.
       The proposal implied that the students would use the modified equipment to
    acquire their own understanding of how the data were collected. It was not
    apparent, however, that the proposed modification of the equipment, or the

       1 (footnote redacted).
       2 (footnote redacted).
       3 (footnote redacted).
       4 (footnote redacted).



                                       Page 1 of 3
                             Closeout for M96080028

equipment itself, was absolutely necessary for the data analysis that, ostensibly,
was the focus of the proposal. In fact, the PIS made allowances for conditions where
data collection by the students might not be possible; in these instances they would
use other data collected previously and proposed to build up a bank of data. OIG
observed that the proposal also stated that once the students were familiar with
where the data came from, there would be no need ,to restrict the students' analysis
t o data taken by them in the lab. The PIS suggested that the faculty involved in
research could share their own research data with the class. In addition, the PIS
suggested that they could obtain data from a variety of sources that the students
would analyze on the lab computers.
    In the first year's progress report, the PIS wrote that they had originally
intended to obtain and use data from a variety of sources in addition to their newly
modified equipment. They stated that although it was no longer possible to use the
facilities at the university this was not a problem because most of the critical
thinking in the laboratories the PIS developed would arise in the analysis of the
data, and in the exercises utilizing the analyzed data. The PIS carefully considered
their options and realized that the original intent of the proposal could still be
carried out in full. They also found that decreasing the hardware requirements
made their work even more widely available to the community and more
transportable (a goal of the original proposal). Thus, the program manage^ was
made fully aware that they no longer had access to the former building, including
the original equipment, and how that would influence their NSF funded activities.
    The program manager told OIG that the change in the direction of the award
was minor. He said, in agreement with the statements by the PIS, that the students
benefited by having a wide variety of data available to them for analysis. He said
that data collection was only a minor part of the proposal. The absence of the lab
and equipment described in the proposal, in his opinion, would not have affected
the final funding decision. The program manager, who had the option to
discontinue funding the project if he believed that the original goals of the proposal
were not being met, concluded that the loss of the lab facilities was not detrimental
to the completion of the project.
   OIG concluded that the closing of the laboratory and loss of laboratory
equipment did not have a sigmficant (negative) effect on the proposed research.
Because the PIS wrote in their progress report that the laboratory was no longer
available to them, we concluded that there was no substance to the allegation that
they hid this information from NSF. We did not determine whether the PIS had
been pressured by their administrators, but concluded that the PIS, dealing with
whatever pressure their administrators may have put on them, upheld their
partnership with NSF by providing an accurate progress report.


   5   (footnote redacted)


                                     Page 2 of 3
                              Closeout for M96080028

   This inquiry is closed a n d no further action will be taken on this case.


cc: AIG-Oversight, I G




                                       Page 3 of 3
